No,

IN THE
SUPREME COURT OF THE UNITED STATES

Antwone Lamont Creater -Petitioner

VS.

The People of the State of Illinois - Respondent(s)
PROOF OF SERVICE
I,Antwone Lamont Creater,do swear or

;-w

declare that on this date,

2021,as required by Supreme Court Rule 29

I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to
the above proceeding or that party's counsel,and on every other
person required to be served,by depositing an envelope containing
the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid,or by delivery
to a third-party commercial carrier for delivery within 3 calandar
days .
The names and addresses of those served are as follows:

I declare under penalty of perjury that the foregoing is true and
correct.
Executed on ___ _______ ,_______ ,2021
/s/

jldnT.

JCL

